U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 31, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Michael Paul Miselis v. United States of America,
S.Ct. No. 20-1241

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 4,
2021, and placed on the docket on March 9, 2021. The government’s response is due on April 8,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 10, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1241
MISELIS, MICHAEL PAUL
USA

GLEN ALLEN
5423 SPRINGLAKE WAY
BALTIMORE , MD 21212
410-802-6453
GLENALLENLAW@GMAIL.COM
RAYMOND CURTIS TARLTON
TARLTON POLK PLLC
PO BOX 1386
RALEIGH, NC 27602
919-948-6464
RTARLTON@TARLTONPOLK.COM

